                           SOCIAL SECURITY
                                                                      Inspector General
                                 November 15, 2002

The Honorable Jo Anne B. Barnhart
Commissioner

Dear Ms. Barnhart:

In November 2000, the President signed the Reports Consolidation Act of 2000
(Public Law No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing
Federal agencies and the agencies’ progress in addressing them. This document
responds to the requirement to include this statement in the Fiscal Year (FY) 2002
Social Security Administration's Performance and Accountability Report.

In October 2001, we identified the following 10 significant management issues facing
the Social Security Administration (SSA) for FY 2002.

    ·   Fraud Risk                ·   Performance, Management and Data
                                      Reliability

    ·   Improper Payments         ·   Management of the Disability Process

    ·   Systems Security          ·   Integrity of the Earnings Reporting
                                      Process

    ·   Service Delivery          ·   Social Security Number Misuse and
                                      Privacy Concerns (Identity Theft)

    ·   Human Capital             ·   Integrity of the Representative Payee
                                      Process

In FY 2002, SSA continued its efforts to address these issues, many of which are of a
long-term nature and do not lend themselves to quick fixes. Our assessment of the
status of these 10 management challenges is enclosed.

                                        Sincerely,



                                        James G. Huse, Jr.

Enclosure



            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
 Inspector General Statement
             on the
Social Security Administration’s
Major Management Challenges

           A-02-03-13034




         NOVEMBER 2002
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           Fraud Risk
Fraud is an inherent risk in all of the Social Security Administration’s (SSA) core
business processes: enumeration, earnings, claims, and post-entitlement. All of these
processes include vulnerabilities that provide individuals the opportunity to defraud third
parties, SSA, or its beneficiaries and recipients. As SSA payments to beneficiaries
approach half a trillion dollars annually, its exposure to fraud increases proportionately.
Our focus on fraud risk is based on program eligibility factors that individuals
misrepresent to attain or maintain eligibility.

SSA’s difficulties in monitoring eligibility factors for Supplemental Security Income (SSI)
recipients is a key reason the SSI program has remained on the General Accounting
Office’s (GAO) list of high-risk Federal programs since 1997.1 Because the SSI
program is means-based, it includes eligibility factors that tend to be more difficult for
SSA to verify and monitor, including income, resources, living arrangements, residency,
and deemed income. While SSA is addressing the factors affecting the complexity of
the SSI program, the Agency still relies on self-reporting of income, living arrangements,
and medical improvement in determining whether an individual is eligible for SSI
payments. Examples of the eligibility factors susceptible to fraud under the Old-Age,
Survivors and Disability Insurance (OASDI) program include family relationships (for
dependents and survivors), school attendance (for children age 18 and older), and child
in-care (for surviving spouses under age 60). Other key risk factors common to both
programs are the reporting of beneficiary and recipient deaths and monitoring of
medical improvements for disabled individuals.

SSA Has Taken Steps to Address this Challenge
SSA has taken an active role to address the integrity of the OASDI and SSI programs
through its “zero tolerance for fraud” initiative. This initiative involves various activities.
In addition to increasing resources for the Office of the Inspector General (OIG), SSA’s
Offices of Operations and Disability, in conjunction with the OIG, formed 17 Cooperative
Disability Investigation (CDI) teams by Fiscal Year (FY) 2002. These teams rely on the
combined skills and specialized knowledge of OIG investigators, State and local law
enforcement officials, and SSA and Disability Determination Services (DDS) personnel
to combat disability fraud. During FY 2002, CDI teams prevented over $62.9 million in
improper payments.

SSA continues to identify and terminate payments to incarcerated beneficiaries. SSA
has agreements with 5,559 correctional facilities that encompass over 99 percent of the
inmate population. SSA estimates the suspension of payments to prisoners saved the
OASDI and SSI programs $500 million in FY 2002.


1
  In 1997, GAO designated the SSI program as high-risk since SSA lacked an effective plan to address
the level of debt that results from overpayments. As a result, SSA developed a corrective action plan,
which was updated in June 2002, to remove the SSI program from GAO’s high-risk list.


IG Statement on SSA’s Major Management Challenges                                                        1
In addition, SSA has taken steps to improve the SSI program, including a corrective
action plan with the goal of removing the SSI program from GAO’s high-risk list. As part
of this effort, SSA has initiated computer matches to identify unreported wage and
unemployment compensation, and real time access to external databases. For
instance, SSA has obtained on-line query access to selected records in 68 agencies in
40 States. SSA estimated these efforts would save $5 million in FY 2002. SSA has
also implemented new computer matches by field office staff to identify recipient income
before awarding SSI payments. This program provides direct access to Office of Child
Support Enforcement (OCSE) databases related to wages, new hires, and
unemployment insurance.

SSA Needs to Continue to Address this Challenge
SSA needs to further address the risk of fraud in the areas of detecting beneficiary
deaths, fugitive felons, and unreported income. A significant tool against fraud risk is
the detection of unreported beneficiary and recipient deaths. However, our audit work
has disclosed that SSA needs to strengthen the effectiveness of this detection tool.
SSA relies on its Death Alert, Control, and Update System (DACUS) to identify and
terminate payments after a beneficiary’s death. Our June 2001 audit report, Old-Aged,
Survivors and Disability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries
(A-01-00-20043), disclosed that 881 auxiliary beneficiaries were paid about $31 million
after their dates of death through December 2000 because DACUS could not properly
match their records. Another audit issued in September 2002, Effectiveness of the
Social Security Administration’s Death Termination Process (A-09-02-22023), disclosed
that, based on a random sample of 200 DACUS alerts, SSA disbursed about
$142.4 million in payments after death during Calendar Year 1999. Of this amount,
SSA had not recovered about $5.4 million as of March 2002.
Another area that is susceptible to fraud risk is payments to unidentified fugitive felons.
Our investigative efforts under the Fugitive Felon Program have identified
65,857 fugitives who were overpaid more than $137.4 million from August 1,1996
through March 31, 2002. Of the 65,857 fugitives, 6,984 were arrested, and we
estimated the related savings to be about $213 million for the SSI program. While SSA
has made progress in obtaining fugitive data, more work remains in this area. We have
recommended that SSA pursue legislation to prohibit the payment of OASDI benefits to
fugitives. We estimate that fugitives continue to receive at least $39 million annually in
OASDI benefits.
As GAO noted in its September 2002 report, Supplemental Security Income: Progress
Made in Detecting and Recovering Overpayments, but Management Attention Should
Continue (GAO-02-849), it is too soon to tell what impact a number of SSA’s initiatives
to strengthen the integrity of the SSI program will have. GAO also made several
recommendations aimed at further strengthening SSA’s ability to deter, detect and
recover SSI overpayments, including reexamining policies and procedures for SSI
overpayment waivers.




IG Statement on SSA’s Major Management Challenges                                         2
                               Improper Payments
Improper payments are a major management challenge since even the slightest error in
SSA’s overall process can result in millions of dollars of OASDI and SSI over- or under-
payments. Allegations of individuals obtaining improper payments from SSA programs
have recently been the subject of media reports, congressional hearings, and legislative
actions. Also, in August 2001, the Office of Management and Budget (OMB) published
The President’s Management Agenda, FY 2002, which includes a Government-wide
initiative for improving financial performance and reducing improper payments.
Improper payments are defined as payments that should not have been made or that
were made for incorrect amounts. Examples of improper payments include payments
with inadvertent errors, for unsupported or inadequately supported claims, for services
not rendered, to ineligible beneficiaries, and resulting from fraud and abuse by program
participants and/or Federal employees.

The risk of improper payments increases in programs with (1) a significant volume of
transactions, (2) complex criteria for computing payments, and/or (3) an emphasis on
expediting payments. SSA faces all three of these risks. Specifically, the Agency is
responsible for issuing timely benefit payments for complex entitlement programs to
50 million individuals. Also, SSA’s purpose—providing Social Security benefits to
retired and disabled workers; as well as providing SSI payments to financially needy
individuals who are aged, blind, or disabled—emphasizes expediting payments.

SSA Has Taken Steps to Address this Challenge
SSA has actively sought to identify actions to reduce improper payments and/or recover
amounts overpaid. Specifically, SSA has been working to improve its ability to prevent
overpayments by obtaining beneficiary information from independent sources sooner
and/or using technology more effectively. For instance, SSA has initiated new computer
matching agreements, obtained on-line access to wage and income data, and
implemented improvements in its debt recovery program.

According to SSA’s June 2002 Corrective Action Plan for the SSI Program, “…SSI
overpayment collections are 33 percent higher since FY 1998, and detections are
32 percent higher.” Additionally, SSA is focusing on initiatives that have proven
potential in preventing overpayments, rather than merely detecting additional
overpayments. For example, for FY 2002 SSA estimates that matching wage data from
OCSE would result in an estimated $110 million in improper payment savings, and
identifying nursing home admissions would result in estimated savings of $20 million.
Further, SSA planned to perform SSI redeterminations on one of every three SSI
recipients in FY 2002, and was requesting funds to increase the number of
redeterminations in FY 2003.




IG Statement on SSA’s Major Management Challenges                                      3
SSA Needs to Continue to Address this Challenge
Some improper payments are inevitable because SSA is not permitted to stop or adjust
payments until due process related to the beneficiary’s right to appeal an action is
completed. 2 Also, SSI payments are paid at the beginning of the month under the
assumption that the recipient’s circumstances (such as income and asset levels) will
remain the same during the month for which payment is rendered. However, SSA
needs to continue pursuing all cost-effective avenues to identify, recover, and prevent
those improper payments that are not inevitable.

Improper payments, including those to deceased beneficiaries, students, and individuals
receiving State workers’ compensation benefits, continue to drain the Social Security
Trust Fund and general Federal funds. For example, based on SSA’s own study after
our 1998 and 1999 audits on benefits involving workers’ compensation, the Agency
estimated that the total past and future errors for two subsets of our workers’
compensation population could reach $1.3 billion in under- and overpayments. Another
example of continued attention in this area pertains to our October 2002 report3 on
benefit payments after death—where we estimated $12 million in Social Security funds
were improperly paid.

In addition to our own work, both the Social Security Advisory Board (SSAB) and GAO
continue to recognize improper payments as a management challenge for SSA. The
SSAB’s March 2002 report, SSA’s Obligation to Ensure that the Public’s Funds are
Responsibly Collected and Expended, concluded that SSA should be moving much
more effectively and aggressively to collect overpayments if it is to properly discharge
its stewardship responsibilities. Also, GAO has testified before Congress and issued a
number of reports in FY 2002 on the need for improvement in the SSI program in
relation to improper payments.4




2
    42 USC 423(g).
3
 Old-Age, Survivors and Disability Insurance and Supplemental Security Income Payments to Deceased
Beneficiaries and Recipients (A-06-02-12012), October 30, 2002.
4
 GAO Testimony, Supplemental Security Income: Status of Efforts to Improve Overpayment Detection
and Recovery (GA-02-962T), July 25, 2002. GAO Report, Financial Management: Coordinated Approach
Needed to Address the Governments Improper Payments Problems (GAO-02-749), August 2002. GAO
Report, Supplemental Security Income: Progress Made in Detecting and Recovering Overpayments, But
Management Attention Should Continue (GAO-02-849), September 2002.


IG Statement on SSA’s Major Management Challenges                                                4
                                 Systems Security

As technology advances and our reliance on technology increases, the need for a
strong information infrastructure becomes even more important. Along with the
explosive growth in computer interconnectivity comes the ability to disrupt or sabotage
critical operations, read or copy sensitive data, and tamper with critical processes.
Those who wish to disrupt or sabotage critical operations have more tools than ever.

Presidential Decision Directive 63, issued in 1998, requires Federal agencies to identify
and protect their critical infrastructure and assets. One of SSA’s most valuable assets
is the information it has been assigned to use to complete its mission. SSA is relying on
technology to meet the challenges of ever-increasing workloads with fewer resources
and rising customer expectations. A physically and technologically secure Agency
information infrastructure is a fundamental requirement.
SSA Has Taken Steps to Address this Challenge
SSA’s current information security challenge is to understand system vulnerabilities and
how to mitigate them. SSA must ensure its critical information infrastructures, such as
the Internet and access to the networks, is secure. By improving systems security and
controls, SSA will be able to use current and future technology more effectively to fulfill
its customers’ needs.

SSA has addressed critical information infrastructure and systems security in a variety
of ways. It created a Critical Infrastructure Protection work group that continually works
toward compliance with Presidential Decision Directive 63. The work group has created
several components Agency-wide to handle systems security, and has begun
vulnerability analyses of what have been identified as its most critical assets. SSA also
routinely sends out security advisories to its staff and has hired outside contractors to
provide expertise in this area—including benchmarking the strength of its security
program relative to other organizations.
SSA Needs to Continue to Address this Challenge
To further strengthen its controls to protect SSA information and systems and prepare
for further challenges, SSA needs to address the following issues.
·   Weaknesses in SSA’s overall information protection control structure identified by
    PricewaterhouseCoopers, including (1) improving physical access controls at non-
    Headquarters locations, including SSA’s regional offices, program service centers,
    and selected DDSs; (2) implementing and monitoring of technical security
    configuration standards governing systems housed in the National Computer Center
    and off-site house systems; and (3) monitoring security violations and periodic
    review of user access.
·   Need to more clearly define and report on all systems and subsystems to improve
    Agency-wide coordination and implementation of systems security.




IG Statement on SSA’s Major Management Challenges                                         5
·   Internal control weaknesses that provide opportunity for unauthorized access to
    sensitive information.

·   Limited review and analysis of system intrusion data performed at SSA facilities.

·   Risks associated with providing customer service over the Internet that include
    authenticating individuals when receiving their information.




IG Statement on SSA’s Major Management Challenges                                       6
                                 Service Delivery
SSA is faced with increased workloads brought about by an aging Baby-boom
generation, a projected retirement wave and other attrition through 2010 of over half of
its workforce, and technological advances that affect both citizens’ expectations and
SSA’s ability to meet them. While SSA is committed to providing, world-class service
and has an established reputation for quality service, maintaining this service will be a
major management issue facing SSA as workloads continue to increase, large numbers
of employees retire, and service expectations rise.

SSA Has Taken Steps to Address this Challenge
SSA has recognized the challenges it faces in maintaining quality service delivery and
has developed a long-term Service Vision. This 10-year plan is based on the premise
that the convergence of the forecasted trends will provide SSA with the opportunity to
(1) reshape its business processes, (2) reform its management of technology, and
(3) deliver the service the American public demands. SSA will rely on electronic
government (E-government) solutions to increase its productivity and allow it to bridge
the resource gap that will be created by the expected explosive growth in its workloads.
Key activities SSA is implementing to support these goals are providing (1) individuals
access to one-stop shopping with single-points-of-entry, such as via the Internet or
automated telephone service; (2) business partners the opportunity to switch from paper
and magnetic tape to the Internet for the earnings reporting process; and (3) information
sharing with Federal and State government partners to serve the American public
better. Additionally, SSA continues to implement its Future Workforce Plan, as we
discuss under the Human Capital Management Challenge.
SSA Needs to Continue to Address this Challenge
While SSA met most of its goals related to service in FY 2002, it should continually
explore innovative ways to address service delivery problems to maintain existing
service levels. As the SSAB reported, SSA has already—and should expect to continue
to provide —uneven service. While those filing for retirement or survivor benefits are
likely to be satisfied with the service provided, individuals with complicated cases—such
as Disability Insurance (DI) or SSI—may encounter problems. As workloads increase,
the dimensions of SSA’s problems can be expected to grow. If these challenges are left
unattended, the public will be faced with crowded reception areas, long waiting times,
inadequate telephone service, and reduced quality of work.

SSA is facing some daunting challenges to provide world-class service that it must
immediately address. One is an incredible swell in workload volumes. Beginning
around 2008, the 76 million “baby boomers” will begin to move into their disability-prone
years and begin to retire. SSA anticipates that by 2010, applications for DI will increase
by as much as 32 percent over 2000 levels and applications for retirement benefits by
31 percent over 2000 levels. Along with this workload increase, demands for the way
services will be delivered are also expected to change, with citizens wanting different
modes of accessibility. For example, the public will want to use the Internet and “one-


IG Statement on SSA’s Major Management Challenges                                        7
stop shopping” for access to services and programs through one interaction with the
Government. Future service delivery challenges include providing customers electronic
services over the Internet and telephone, 24 hours a day, 7 days a week. It will be the
norm for business transactions to be processed electronically at the first point of
contact. Due to the critical importance of this issue, Expanded E-government was
included as a Government-wide initiative in The President’s Management Agenda
issued August 2001. The Agenda stated that “The federal government can secure
greater services at lower cost through E-government, and can meet high public demand
for E-government services”.

Further, in May 2002, GAO testified5 that SSA’s future success in managing workloads
and meeting customer demands is linked to effectively managing information
technology initiatives. While SSA’s vision is to rely heavily on technology, GAO noted
weaknesses in how SSA would successfully manage and meet the goals it has
established. Some of the weaknesses included the following.

·   Investment proposals may not provide the most cost-effective solutions and achieve
    measurable and specific program-related benefits—ensuring high-quality service
    delivered on time, within cost, and to the customer’s satisfaction.

·   Internet and web-based customer environments are not aligned with the Agency’s
    information technology environment—ensuring key elements to deliver service are
    aligned with SSA’s information technology environment.

·   Improvements in customer service dependent on software-intensive systems—
    ensuring that SSA delivers quality software on schedule and within cost estimates.

To address these challenges, the Commissioner initiated a new emphasis on quality
that seeks to balance five elements: accuracy, timeliness, productivity, cost, and
customer service. To accomplish these challenges, the Commissioner is taking action
to place the resources where they are needed to do the job right the first time. SSA
also plans to rely heavily on information technology. However, both GAO and we have
reported that some of the Agency’s past experiences have shown mixed success. SSA
will need to continually focus on these important challenges.




5
 GAO Testimony, Social Security Administration: Agency Must Position Itself Now to Meet Profound
Challenges (GAO-02-289T), May 2, 2002.


IG Statement on SSA’s Major Management Challenges                                                  8
                                       Human Capital
Strategic Management of Human Capital is a Government-wide management reform
included in the President’s Management Agenda and has been designated by GAO6 as
a Government-wide high-risk area. SSA has recognized the importance of this issue
because of both anticipated increased workloads and employee retirements. SSA
reported that it faces explosive workload growth as the baby boom generation ages,
becomes more prone to disabilities, and retires. At the same time, SSA will experience
a “retirement wave” that projects the loss of more than 38,000 employees over the next
decade.

SSA Has Taken Steps to Address this Challenge
SSA has established a multi-faceted response to the human capital challenge focused
on (1) replenishing the workforce, (2) broadening the capabilities of current employees,
(3) continuing strong management and executive development programs, and (4)
improving workforce retention. SSA developed a Future Workforce Transition Plan,
which is a 5-year effort to guide SSA from the workforce of today to the workforce of
tomorrow. The Agency has identified positions that will incur the most serious losses
due to retirement and has developed a succession plan. Additionally, the Agency has
established a wide range of action items and target dates intended to meet SSA’s future
workforce needs by expanding its employees’ capabilities and improving employee
retention and recruitment. For instance, SSA’s plan contains initiatives to implement
and test new training technologies, develop a marketing plan for recruiting new
employees, initiate actions to increase employee retention, and hire in advance of
losses to ensure institutional knowledge of experienced employees is transferred to new
employees. SSA further reports it will continually assess its workloads and other
responsibilities to ensure its critical staffing needs are met.

SSA Needs to Continue to Address this Challenge
The combined effect of employee attrition and increased demand for services will
impose a significant challenge to SSA’s management of its human capital. SSA
estimates its workforce retirements will peak between 2007 and 2010—when about
2,500 employees will retire annually. Further, between 2000 and 2010, about
72 percent of SSA’s managers and senior executives, about 60 percent of its
supervisors, about 34 percent of claims representatives, and about 29 percent of the
Agency’s computer specialists are projected to retire.

To provide the kind of service that has been the Agency’s hallmark, SSA recognizes it
must maintain a highly skilled, high performing, and highly motivated workforce. A key
requirement is also to have the right number of staff with the correct skills. According to
the SSAB in its March 2002 report SSA’s Obligation to Ensure That the Public’s Funds
are Responsibly Collected and Expended, many SSA employees believed there were
6
    GAO Report, High-Risk Series: An Update (GAO-01-263), January 2001.


IG Statement on SSA’s Major Management Challenges                                         9
not enough staff to accomplish all mandated tasks. The report further noted that SSA
had appointed a work group to identify workloads in field offices that are underfunded.
The objective was to develop short-term tools for identifying these workloads so they
would be considered when the budget is formulated. SSAB also noted that this type of
analysis was important to the credibility and usefulness of the Agency’s budget
submissions.

Although SSA has taken initiatives to address its human capital challenge, many actions
still need to be refined and then successfully carried out. For instance, as part of its
effort to increase new hire retention, SSA began a study of why new hires leave. This
study will need to be analyzed to determine options SSA can take to meet its goals of
increasing retention rates. Similarly, SSA is relying on desktop video training as an
important aspect of its program to maintain a skilled workforce; however, this initiative is
still in prototype stage, and its success will depend on future funding. SSA will need to
continually monitor the effects of these actions and be able to quickly respond to
changing employee and client service needs.




IG Statement on SSA’s Major Management Challenges                                        10
           Performance, Management and Data Reliability
To effectively meet its mission, manage its programs, and report on its performance,
SSA needs sound performance and financial data. Congress, the general public, and
other interested parties also need sound and credible data to monitor and evaluate
SSA’s performance. The President’s Management Agenda has placed great emphasis
on the management and performance of Federal agencies, including the integration of
budget and performance. SSA has demonstrated a strong commitment to the
Government Performance and Results Act of 1993 (Public Law No. 103-62) by
developing strategic plans, annual performance plans and annual performance reports.
However, we believe SSA can further strengthen its use of performance information by
fully documenting the methods and data used to measure performance and by
improving the data sources that appear to be unreliable.

SSA Has Taken Steps to Address this Challenge
Our audits and reviews of SSA’s financial statements, annual performance plans and
reports, and individual performance measures disclosed that SSA has demonstrated
commitment to the production and use of reliable performance and financial
management data. SSA is the only Federal agency to receive the Certificate of
Excellence in Accountability Reporting for its Performance and Accountability Report
every year since the award program began for FY 1998.

SSA has continually refined its annual performance plans to develop performance
measures that more accurately reflect performance and are more outcome-based. In
FY 2002, SSA revamped its Tracking Report used by Agency executives to manage key
workloads at the national level and made it available to all employees on-line. The
revised report tracks key FY 2002 performance measures and provides alerts as to
whether performance is significantly different from the goals established. SSA
describes its progress in meeting annual performance goals in its performance and
accountability reports. SSA took action to address some of the issues we noted could
be improved or for which the reliability of the data was questionable. For instance, SSA
agreed to review the hearings process from initial in-take through input into the Hearing
Office Tracking System after we reported the data from this system were unreliable.

SSA Needs to Continue to Address this Challenge
Our audits of 21 performance measures in FY 2002 found the data for 16 of the
measures reviewed were reliable. We were unable to issue an opinion for five of the
measures because the data or documentation of the methods used to measure SSA’s
performance was not available. We have generally found, even for the performance
measures found to be reliable, that SSA lacks documentation of the methods and data
used to measure its performance.

SSA needs to have performance goals and measures that address the major
management challenges facing the Agency. While the FY 2002 annual performance


IG Statement on SSA’s Major Management Challenges                                      11
plan discussed SSA’s approach to addressing its major management challenges,
performance measures were not established for all the challenges, such as the
Earnings Suspense File and the integrity of the representative payee process.

SSA could also improve the extent to which performance measurement is outcome
(results) based. The continual reliance on multiple output performance measures
makes it difficult to judge the performance of some of SSA’s program and key activities.
SSA needs to continue focusing its efforts on developing high-quality, outcome-based
performance indicators and goals for each of its programs and activities.

SSA also needs to further develop a cost accounting system to better link costs with
performance. Since most goals are not aligned by budget account, the resource,
human capital, and technology necessary to achieve many performance goals are not
adequately described. SSA began to implement a cost accounting system in FY 2002,
which will be phased in over the next 3 to 4 years.




IG Statement on SSA’s Major Management Challenges                                     12
                  Management of the Disability Process
Management of the disability process is a major management challenge for which SSA
has established various initiatives to improve processing times and productivity;
however, its success has been mixed. SSA administers two programs providing
benefits based on disability: DI and SSI. Most disability claims are initially processed
through SSA field offices (FO) and DDS offices. SSA’s FO staff are responsible for
obtaining applications for disability benefits and verifying non-medical eligibility
requirements, which may include age, employment, or marital status information. The
FO sends the case for a disability evaluation to a DDS, which is a State agency or other
responsible jurisdiction funded by SSA to develop medical evidence and render the
initial determination on whether the claimant is legally disabled or blind. In FY 2002,
2,376,572 initial disability claims were processed, with an average processing time of
104 days. SSA’s goal was to process 2,191,000 initial disability claims, with an average
processing time of 115 days.

If a claimant is not satisfied with a DDS’ decision, the individual may file an appeal. The
Office of Hearings and Appeals is responsible for holding hearings and issuing
decisions at two distinct stages in SSA’s appeals process—in hearing offices and at the
Appeals Council. Administrative law judges hold hearings and issue decisions in
hearing offices nationwide. In FY 2002, hearing offices processed 532,106 cases, and
the average time a claimant waited for a decision on an appeal was 336 days. SSA’s
goal was to process 490,000 cases, with an average processing time of 330 days. The
Appeals Council is the final level of administrative review for claims filed under SSA’s
disability programs. The Appeals Council reviews administrative law judges’ decisions
and dismissals upon the claimant’s request for review. In FY 2002, SSA’s goal was to
process Appeals Council cases with an average processing time of 285 days; actual
average processing time was 412 days.

SSA Has Taken Steps to Address this Challenge
SSA has tested several improvements to the disability claims process as a result of
concerns about the timeliness and quality of its service. These improvement initiatives
have been piloted over the last few years and include all levels of eligibility
determinations beginning with DDSs and continuing through the hearings and appeals
processes.

Recognizing the lack of significant improvements to the disability determination process
time, the Commissioner in FY 2002 announced several decisions on the future of SSA’s
disability process. The Commissioner’s decisions included expanding the Single-
Decision Maker nationwide, ending the requirements for the claimant conference,
evaluating the elimination of the reconsideration level of the claims process nationwide,
making additional improvements to the hearings process, and implementing an e-Dib
(electronic disability initiative) by 2003.




IG Statement on SSA’s Major Management Challenges                                        13
SSA Needs to Continue to Address this Challenge
SSA needs to continue its focus on improving the disability process. SSA met three,
partially met one, and failed to meet one of its seven disability-related performance
goals contained in its FY 2002 performance report. Further, data was not available to
measure performance for two other goals. Particularly troublesome is the hearings and
appeals process. SSA met two of its eight goals related to the hearings and appeals
process, failed to meet five, and the data was not available for one. The disability
process continues to be a serious concern given the level of resources SSA has
devoted to its disability process improvement initiatives and the lack of substantial
improvement to date.

During FY 2002, we reviewed the status of five of SSA’s Disability Process
Improvement Initiatives: Prototype, Quality Assurance, Disability Claims Manager,
Process Unification, and Hearings Process Improvement. We found that Prototype
DDSs, DDSs that implemented one or more improvement initiatives, were falling behind
in providing timely customer service as processing time at the initial level increased,
productivity decreased, and the backlog of cases grew at the DDSs and Office of
Hearings and Appeals. In addition, preliminary data from the Prototype raised
questions about the program costs of national implementation. We also found that the
Hearings Process Improvement initiative did not result in significant improvements in
processing times and resulted in decreased productivity. Furthermore, SSA has not
fully developed a plan for a more comprehensive and uniform quality assurance system,
which is critical to disability claim adjudication.




IG Statement on SSA’s Major Management Challenges                                    14
               Integrity of the Earnings Reporting Process
SSA’s Earnings Suspense File (ESF) represents a major management challenge
because its size and rate of growth may impact the calculations of beneficiaries'
benefits, results in higher administrative costs, and represents a sizeable portion of
Social Security number (SSN) misuse.

The integrity of SSA’s process for posting workers’ earnings is critical to ensuring
eligible individuals receive the full retirement, survivor, and/or disability benefits due
them. The ESF primarily consists of reported earnings for which the name and SSN
combination does not match validation criteria within SSA’s systems. Each year, SSA
receives about 21 million wage items that have invalid name and SSN combinations.
Through extensive computer matches and manual efforts, this number is reduced to
about 6.5 million items, annually. However, about 1 percent of the earnings reported
annually cannot be posted to earners' accounts and accumulates in the ESF. Between
Tax Years (TY) 1937 and 2000, the ESF grew to about $374 billion in wages,
representing approximately 236 million wage items.

The ESF is further indicative of a nation-wide problem of potential fraud and misuse that
not only affects SSA’s programs, but also that of other Federal agencies—such as the
Internal Revenue Service (IRS) and the Immigration and Naturalization Service (INS).
The IRS uses wage data to enforce tax laws and can penalize employers and
employees for providing incorrect information. The INS has oversight responsibility for
unauthorized noncitizens. The Immigration Reform and Control Act of 1986 (Public Law
No. 99-603) made it illegal for employers to knowingly hire or continue to employ
unauthorized noncitizens. Employers must request that newly hired employees present
documents that establish their identities and eligibility to work.

SSA Has Taken Steps to Address this Challenge
SSA has several initiatives to reduce the ESF’s size and rate of growth. For example,
SSA is piloting an on-line system called the SSN Verification System—a project
designed to assist employers in verifying new hire names and SSNs. This pilot expands
the current Employee Verification Service (EVS) for registered employers—a paper and
magnetic media process. In addition, in TY 2001 SSA expanded its correspondence
with employers when the name and/or SSN submitted did not match SSA's records.
Employers were asked to obtain and provide corrected wage information. Finally, SSA
is evaluating the results of two other pilot projects that used the databases of other
Federal agencies to assist employers in verifying employees’ names and SSNs.
However, the success of many of these projects and pilots depends on the collaboration
with and support from other agencies—such as the IRS, INS, and OCSE.

SSA has also developed other processes to validate the earnings data in the Master
Earnings File. SSA recently started mailing Social Security statements to individuals
who had earnings and were age 25 or older. In FY 2002, SSA mailed almost
138 million of these statements. However, over 12 million were returned to SSA as


IG Statement on SSA’s Major Management Challenges                                        15
undeliverable. If an individual contacts SSA about missing earnings, these amounts are
either reinstated from the ESF to the Master Earnings File—if they are in the ESF—or
added as new earnings to the Master Earnings File.

SSA Needs to Continue to Address this Challenge
We commend SSA for its efforts, but several factors—both internal and external to
SSA—hinder the efforts with the most potential to reduce the ESF’s size and growth.
Some of the internal factors include a higher priority placed on other automated system
developments and the fact that SSA has not linked available information in its database
to identify chronic “problem” employers who continually submit annual wage reports with
multiple errors. External factors include other Federal agencies with separate yet
related mandates, such as the IRS's failure to sanction employers for submitting invalid
wage data7 and the INS' complicated employer procedures for verification of eligible
employees. Further, SSA acknowledges the suspense file most likely will grow as
transient workers in certain industries increase.

Recent OIG reviews have found SSA needs to improve communications with employers
if it expects to improve the accuracy of reported wages. For example, our August 2002
review, Effectiveness of the Social Security Administration's Earnings after Death
Process, found that SSA's earnings after death edit was not effective in resolving TY
1998 suspended earnings items. While SSA reinstated approximately 6 percent of the
suspended items in our sample, another 22 percent of the suspended items could also
have been reinstated. In addition, 33 percent of the sample items contained instances
where it appears someone else was using the deceased individual's name and/or SSN.
Our review of the earnings after death suspended items for TY 1998 also indicated that
7 of the top 10 contributors to the ESF were from the entertainment industry. Better
communication with this industry could reduce the number of suspended items going
into the ESF.

Our September 2002 report, The Social Security Administration's Employee Verification
Service for Registered Employers, found that very few employers were using SSA's
voluntary EVS for registered users, with only 392 employers out of a potential 6.5 million
employers using this service during the last 3 years. In addition, we noted that SSA did
not disclose pertinent information that could have assisted registered employers, such
as whether the submitted SSN belonged to a deceased individual or the SSN was
issued to the individual for nonwork purposes. SSA agreed with our recommendations
designed to assist employers and improve the EVS.




7
 Internal Revenue Code section 6721 authorizes IRS to levy penalties for failure to file properly
completed information returns, including Form W-2s.


IG Statement on SSA’s Major Management Challenges                                                   16
                    Social Security Number Misuse and
                     Privacy Concerns (Identity Theft)

In FY 2002, SSA issued over 18 million original and replacement SSN cards. As use of
the SSN has grown, so has its misuse. Because the SSN is so heavily relied upon as
an identifier, it is a valuable commodity for criminals. It can be obtained illegally in many
ways: presenting false documentation to SSA, stealing another person’s SSN,
purchasing an SSN card on the black market, using the SSN of a deceased individual,
and simply creating a nine-digit number. As we have learned through numerous
investigations, even a legally obtained SSN can be used to facilitate an unlawful act.
Failure to protect the SSN’s integrity can have enormous consequences for our Nation
and its citizens. Given the magnitude of SSN misuse, we believe SSA must employ
effective front-end controls in its enumeration process. Likewise, additional techniques,
such as data mining, biometrics, and enhanced systems controls are critical in the fight
against SSN misuse.

SSA Has Taken Steps to Address this Challenge
In response to the terrorist events of September 11, 2001, SSA formed an executive
level Enumeration Task Force to explore and track the Agency’s progress toward
completing policy and procedural initiatives to further enhance the SSN’s integrity.
Among the Task Force initiatives are:
·   provide refresher training on enumeration policy and procedures, with emphasis on
    enumerating noncitizens, for all involved staff;

·   convene a joint task force between SSA, INS, Department of State and Department
    of Health and Human Services’ Office of Refugee Resettlement to resolve issues
    involving enumeration of non-citizens, including procedures for verifying INS
    documents before SSN issuance; and

·   eliminate driver’s licenses as a reason for a nonwork number.

Of eight Task Force initiatives, SSA has implemented three, and five are ongoing.
Other Agency initiatives include (1) agreements to enable INS and Department of State
to collect enumeration data from aliens entering the United States, (2) a work-group to
study the feasibility of limiting the number of replacement SSN cards, (3) obtaining on-
line access to State vital records so FOs can verify all United States birth certificates
presented in support of SSN applications, (4) verifying INS documents submitted by
noncitizens who apply for an SSN, (5) a workgroup to identify enhancements in the
Modernized Enumeration System to address certain fraud-prone situations, and (6)
partnering with INS and OIG to open Enumeration Centers in large metropolitan areas
to ensure that only qualified individuals with valid documents will receive SSNs.




IG Statement on SSA’s Major Management Challenges                                         17
SSA Needs to Continue to Address this Challenge
To ensure SSN integrity in a post September 11th environment, we believe SSA must
focus on three stages of protection: (1) upon issuance of the SSN card, (2) during the
life of the SSN holder, and (3) upon that individual’s death. For example, all birth
records, immigration records, and other identification documents presented to SSA
must be independently verified as authentic before SSA issues an SSN. We continue to
encourage full and expedited implementation of a joint Enumeration at Entry program.
While this may subject the enumeration process to delays, such delays in service may
be necessary to ensure the integrity of the SSN.

Once SSA issues an SSN and it becomes an integral part of the number-holder’s life, it
becomes difficult to give the SSN the degree of privacy it requires. Businesses and
government agencies nationwide rely on the SSN as a convenient means of record
keeping. By doing so, these entities collect, store, and, sometimes share a lifetime of
personal information associated with the number. With this information, a criminal can
commit financial fraud, and, in some cases, camouflage other crimes. The challenge for
SSA and the Congress is to find a balance between ensuring the SSN’s privacy and
ensuring that businesses and Federal and State agencies are not unduly limited in the
process. Despite this challenge, the following are important steps SSA can take:

·   limit the SSN’s public availability to the greatest extent practicable, without unduly
    limiting commerce;

·   prohibit the sale of SSNs, prohibit their display on public records, and limit their use
    to valid transactions; and

·   enact strong enforcement mechanisms and stiff penalties to further discourage SSN
    misuse.

Finally, SSA must do more to protect the SSN after the SSN holder’s death. SSA
receives death information from a wide variety of sources and compiles a Death Master
File, which is updated monthly, transmitted to various Federal agencies, offered for sale
to the public, and available for access over the Internet. Accuracy in this area is critical
to SSA in the administration of its programs, to the financial services industry, and to the
American people.

Full implementation of ongoing and planned initiatives and continued vigilance in this
area is necessary to ensure the SSN’s integrity. We understand the Agency has a
difficult task in balancing service and security. However, SSA must continuously review
its systems and processes for opportunities to prevent the possibility that individuals
misuse SSNs to commit or camouflage criminal activities.




IG Statement on SSA’s Major Management Challenges                                            18
             Integrity of the Representative Payee Process
Congress granted SSA the authority to appoint representative payees to receive and
manage OASDI and SSI payments for beneficiaries deemed incapable of managing or
directing the management of their finances. A representative payee may be an
individual or an organization. Representative payees are responsible for managing
these payments in the recipients’ best interest, and organizational representative
payees may receive a monthly fee from beneficiaries for their service. There are about
5.4 million representative payees who manage the benefits of about 7.6 million
beneficiaries. SSA has experienced problems with representative payees who have
misused beneficiary funds, and we have identified weaknesses in the selection,
monitoring and accountability of representative payees.

SSA Has Taken Steps to Address this Challenge
SSA has recognized the vulnerabilities and weakness with the integrity of the
representative payee process. In FY 2000, SSA established a Representative Payee
Task Force to address them. The Task Force performed a comprehensive review of the
features and vulnerabilities of the Representative Payment Program. The Task Force is
comprised of three subgroups: (1) monitoring representative payees; (2) systems
support for the Representative Payment Program, and (3) bonding and licensing of
representative payees. As a result, SSA developed a representative payee monitoring
program, consisting of site reviews of all representative payees receiving a fee, all
volume organizational representative payees (serving over 100 beneficiaries), and all
individual representative payees serving 20 or more beneficiaries. This routine
monitoring system is on a 3-year cycle. In addition, SSA will conduct random reviews of
a sample of volume organizational and representative payees receiving a fee. Further,
in response to certain “trigger” events, SSA will review organizational representative
payees as needed. Such “trigger” events include third-party reports of misuse,
complaints from vendors for failure to receive payment, or failure to complete the annual
Representative Payee Report. Additionally, SSA annually verifies the required license
or bond for all representative payees receiving a fee, and visits payees receiving a fee
6 months after their initial appointment to ensure they fully understand their duties and
responsibilities.

In March 2001, we alerted SSA to a condition whereby individuals were serving as
representative payees who also had representative payees to manage their own Social
Security benefits. SSA subsequently implemented a program to identify and investigate
these situations. We also identified 121 representative payees whose own benefit
payments were stopped by SSA because they were fugitive felons or parole or
probation violators, but who managed over $1.4 million in Social Security funds for
161 beneficiaries. In response to our audit, SSA agreed to review these cases and
reevaluate whether these fugitives are suitable payees. SSA also established a
workgroup to develop processing instructions for handling this workload. SSA is also
working to make the Representative Payee System—which SSA uses to appoint and
monitor representative payees—more reliable.


IG Statement on SSA’s Major Management Challenges                                     19
SSA Needs to Continue to Address this Challenge
Although SSA has recognized the need to strengthen its selection and oversight of
representative payees, we continue to identify problems with SSA’s oversight of
representative payees. Since FY 2001, we have performed 13 financial-related audits
of representative payees. Our audits identified deficiencies with representative payees’
financial management and accounting for benefit receipts and disbursements;
vulnerabilities in the safeguarding of beneficiary payments; poor monitoring and
reporting to SSA of changes in beneficiary circumstances; inappropriate handling of
beneficiary-conserved funds; and improper charging of fees. Some of the areas in
which SSA needs to take action are.

§   Selection of representative payees – SSA is exploring ways to strengthen the
    selection process. SSA awarded a contract to research the feasibility of conducting
    criminal and/or credit background checks for the corporate officers and fiduciaries in
    potential fee-for-service representative payees and is considering a contract to
    investigate the financial soundness of prospective and existing fee-for-service
    representative payee organizations. However, SSA has not issued any policy
    changes on the selection of representative payees.

§   Representative Payee System – We have noted the following weaknesses in the
    Representative Payee System: (1) system alerts were not always worked because
    they were given low priority; (2) ineffective tracking of representative payees who do
    not complete annual Representative Payee Reports; (3) inability of SSA to locate
    and retrieve completed Representative Payee Reports when needed; and
    (4) information lacking for some representative payees, and beneficiaries who have
    representative payees, as required by law.8 SSA has said that it is working to
    correct these deficiencies.

§   Bonding and Licensing of representative payees – SSA’s policy specifies neither the
    amount of bond necessary to adequately protect beneficiaries nor the type or nature
    of licenses that are required. To date, SSA has not revised its policy to address
    these vulnerabilities.

We have also recommended that SSA explore the use of Stored Value Cards9 to help
address systemic weaknesses in it’s Representative Payment Program. SSA believes
that Stored Value Cards would be time-consuming and labor intensive for
representative payees, and that they would not allow SSA to better monitor
representative payees. However, SSA is committed to improving the Representative


8
 The Omnibus Budget Reconciliation Act of 1990 required the development of a system to store data
about all representative payees and the beneficiaries for whom they serve.
9
 A Stored Value Card is a prepaid spending card that can be used everywhere a credit card is accepted.
Stored Value Cards do not have a line of credit and can be used to make automated teller machine
withdrawals.


IG Statement on SSA’s Major Management Challenges                                                   20
Payment Program and is exploring other innovative approaches for monitoring
representative payees.




IG Statement on SSA’s Major Management Challenges                             21
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




IG Statement on SSA’s Major Management Challenges
                                                                      Appendix A

Acronyms
    CDI                 Cooperative Disability Investigation
    DACUS               Death Alert, Control, and Update System
    DDS                 Disability Determination Services
    DI                  Disability Insurance
    E-government        electronic government
    ESF                 Earnings Suspense File
    EVS                 Employee Verification Service
    FO                  Field Office
    FY                  Fiscal Year
    GAO                 General Accounting Office
    IRS                 Internal Revenue Service
    INS                 Immigration and Naturalization Service
    OASDI               Old-Age, Survivors and Disability Insurance
    OCSE                Office of Child Support Enforcement
    OIG                 Office of the Inspector General
    OMB                 Office of Management and Budget
    SSA                 Social Security Administration
    SSAB                Social Security Advisory Board
    SSI                 Supplemental Security Income
    SSN                 Social Security number
    TY                  Tax Year




IG Statement on SSA’s Major Management Challenges
                                                                     Appendix B

Related Office of the Inspector General Reports
  Management Challenge Area, Report Title and                          Report
        Common Identification Number                                   Issued

                                       Fraud Risk

Controls to Prevent Supplemental Security Income                September 13, 2002
Payments to Recipients Living in Foreign Countries
(A-01-02-12013)
Management Advisory Report: Social Security                     September 12, 2002
Administration Employees with Title XVI Overpayment
Write-offs (A-04-99-64005)
Review of Internal Controls for the Supplemental Security       September 10, 2002
Income Immediate Payment Process (A-05-00-10045)
Congressional Response Report: Integrity of the                 August 8, 2002
Supplemental Security Income Program (A-01-02-22095)

                                 Improper Payments

Impact on the Social Security Administration's Programs When    September 20, 2002
Auxiliary Beneficiaries Do Not Have Their Own Social Security
Numbers (A-01-02-22006)
Effectiveness of the Social Security Administration's Death     September 17, 2002
Termination Process (A-09-02-22023)
The Social Security Administration Can Recover Millions in      July 3, 2002
Medicare Premiums Related to Retirement or Disability
Payments Made after Death (A-08-02-12029)
Controls Over the Social Security Administration’s Processing   February 27, 2002
of Death Records from the Department of Veterans Affairs
(A-01-01-21038)
Congressional Response Report: Select Social Security           November 14, 2001
Administration Stewardship Efforts and Reported Savings
(A-08-02-22028)
Social Security Administration's Management of Its Federal      October 25, 2001
Employees' Compensation Act Program (A-13-99-91003)

                                  Systems Security

Information System Controls of the Social Security              September 30, 2002
Administration's Representative Payee System (Limited
Distribution) (A-44-01-31051)


IG Statement on SSA’s Major Management Challenges                                    B-1
  Management Challenge Area, Report Title and                           Report
        Common Identification Number                                    Issued
Management Advisory Report: Social Security Administration's September 26, 2002
Data Exchange with Other Agencies (Limited Distribution)
(A-14-02-12037)
The Social Security Administration's Compliance with the     September 12, 2002
Government Information Security Reform Act (Limited
Distribution) (A-14-02-12042)
Review of Security over Remote Access to the Social Security May 1, 2002
Administration's Main Processing Environment (Limited
Distribution) (A-14-01-11010)

                                   Service Delivery

Social Security Administration's Management of Congressional    September 23, 2002
Inquiries (A-13-02-12011)
Internal Control Review of the Office of Earnings Operations    August 9, 2002
Processing of Remittances and Handling of Mail (Limited
Distribution) (A-15-01-21030)
Case Folder Storage and Retrieval at the Social Security        August 1, 2002
Administration's Megasite Records Center (A-04-99-62006)
Congressional Response Report: Washington, D.C., Office of      July 31, 2002
Hearings and Appeals (Limited Distribution) (A-13-02-22070)
Performance Measure Review: Reliability of the Data Used to     July 30, 2002
Measure Electronic Service Delivery (A-14-01-11032)

                                    Human Capital

Follow-up Evaluation of the Use of Official Time for Union       June 26, 2002
Activities at the Social Security Administration (A-13-01-11005)
Congressional Response Report: The Social Security               April 29, 2002
Administration's Policies and Procedures Concerning the Rural
Development Act of 1972 (A-13-02-22065)

                   Performance Management and Data Reliability

Performance Measure Review: Reliability of the Data Used to     August 5, 2002
Measure the Supplemental Security Income Non-Disability
Redeterminations Completed (A-02-99-11003)
Performance Measure Review: Assessing the Methodology           August 1, 2002
Used to Determine the Number of Hearing Cases Processed
Per Work Year (A-06-01-11037)
Performance Measure Review: Increase in the Number of           May 31, 2002
Disabled Beneficiaries Who Are Working (A-01-01-11022)
Performance Measure Review: Reliability of the Data Used to     April 17, 2002


IG Statement on SSA’s Major Management Challenges                                    B-2
  Management Challenge Area, Report Title and                          Report
        Common Identification Number                                   Issued
Measure the Office of Hearings and Appeals Decisional
Accuracy (A-12-00-10057)
Performance Measure Review: Reliability of the Data Used to     April 15, 2002
Measure Employer Satisfaction (A-02-01-11012)
Performance Measure Review: The Social Security                 March 27, 2002
Administration’s Transition Planning (A-02-01-11014)
Performance Measure Review: Reliability of the Data Used to     March 8, 2002
Measure the Quality of the Social Security Administration’s
Research (A-02-01-11011)
Performance Measure Review: Reliability of the Data Used to     February 7, 2002
Measure Public Knowledge of the Social Security
Administration (A-02-01-11015)
Performance Measure Review: Reliability of the Data Used to     January 14, 2002
Measure Anti-Fraud Performance (A-02-01-11013)
Performance Measure Review: Reliability of the Data Used to     November 6, 2001
Measure Disability Claims Processing (A-02-00-10017)
Performance Measure Review: Reliability of the Data Used to     October 2, 2001
Measure the Timely Processing of Disability Insurance Claims
(A-02-99-11001)

                       Management of the Disability Program

Congressional Response Report: Huntington, West Virginia,       August 28, 2002
Office of Hearings and Appeals (Limited Distribution)
(A-13-02-22090)
Continuing Disability Reviews for Supplemental Security         June 26, 2002
Income Recipients Approved Based on Low Birth Weight
(A-01-02-12031)
Status of Social Security Administration's Disability Process   June 18, 2002
Improvement Initiatives (A-07-00-10055)
Performance Measure Review: Reliability of the Data Used to     April 17, 2002
Measure the Office of Hearings and Appeals Decisional
Accuracy (A-12-00-10057)
Follow-up Review of SSA’s Implementation of Drug Addiction      December 17, 2001
and Alcoholism Provisions of Public Law 104-121
(A-01-01-11029)
Assessment of the Electronic Disability Process                 October 22, 2001
(A-14-01-11044)

                    Integrity of the Earnings Reporting Process

The Social Security Administration's Employee Verification      September 12, 2002
Service for Registered Employers (A-03-02-22008)


IG Statement on SSA’s Major Management Challenges                                    B-3
  Management Challenge Area, Report Title and                           Report
        Common Identification Number                                    Issued
Effectiveness of the Social Security Administration's Earnings   August 19, 2002
After Death Process (A-03-01-11035)
Effectiveness of the Social Security Administration's            July 3, 2002
Decentralized Correspondence Process (A-03-01-11034)
Management Advisory Report: Recent Efforts to Reduce the         May 24, 2002
Size and Growth of the Social Security Administration's
Earnings Suspense File (A-03-01-30035)

      Social Security Number Misuse and Privacy Concerns (Identity Theft)

The Social Security Administration Continues Assigning            August 22, 2002
Original Social Security Numbers To Foreign-Born
Individuals Who Present Invalid Evidentiary Documents
(A-08-02-12056)
Congressional Response Report: Noncitizen Enumeration             June 18, 2002
at the Social Security Administration's Rochester, Minnesota
Field Office (A-03-02-22078)
Management Advisory Report: Social Security Number                May 9, 2002
Integrity: An Important Link in Homeland Security
(A-08-02-22077)
Work Activity for Social Security Numbers Assigned for            March 29, 2002
Nonwork Purposes in the State of Utah (A-14-01-11048)
Disclosure of Personal Beneficiary Information to the Public      January 14, 2002
(Limited Distribution) (A-01-01-01018)
Congressional Response Report: Terrorist Misuse of Social         October 25, 2001
Security Numbers (A-08-02-32041)
Congressional Response Report: SSN Misuse - A                     October 3, 2001
Challenge For the Social Security Administration
(A-08-02-22030)

                   Integrity of the Representative Payee Process

Financial-Related Audit of the Denver Department of Human        September 23, 2002
Services – An Organizational Representative Payee for the
Social Security Administration (A-05-02-12024)
Financial-Related Audit of the Florida Department of Children    September 17, 2002
and Families - District 6, an Organizational Representative
Payee for the Social Security Administration (A-08-02-12007)
Management Advisory Report: Summary of Financial-Related         August 5, 2002
Audits of Representative Payees for the Social Security
Administration (A-13-00-10065)
Analysis of Information Concerning Representative Payee          June 25, 2002
Misuse of Beneficiaries' Payments (A-13-01-11004)


IG Statement on SSA’s Major Management Challenges                                     B-4
  Management Challenge Area, Report Title and                       Report
        Common Identification Number                                Issued
Financial-Related Audit of A. Holly Patterson Extended Care    June 18, 2002
Facility – A Representative Payee for the Social Security
Administration (A-02-02-12034)
Financial-Related Audit of the Jackson County Public           June 10, 2002
Administrator - An Organizational Representative Payee for the
Social Security Administration (A-07-02-22002)
Congressional Response Report: Social Security                 November 6, 2001
Administration's SmartPay Program (A-13-02-22059)
Financial-Related Audit of an Individual Representative        October 24, 2001
Payee for the Social Security Administration in Region VI
(A-06-00-10063)




IG Statement on SSA’s Major Management Challenges                                 B-5
                                                                        Appendix C

Office of the Inspector General Contacts
   Mark Bailey, Deputy Director           Management of the Disability Program

   Walter Bayer, Deputy Director          Integrity of the Earnings Reporting Process

   Brian Karpe, Lead Auditor              Human Capital

   Jim Klein, Audit Manager               Integrity of the Representative Payee Process

   Tim Nee, Deputy Director               Performance, Management and Data
                                          Reliability

   Frank Nagy, Deputy Director            Service Delivery

   Judith Oliveira, Deputy Director       Improper Payments

   Jeff Pounds, Deputy Director           Social Security Number Misuse and
                                          Privacy Concerns (Identify Theft)

   Jack Trudel, Deputy Director           Fraud Risk

   Kitt Winter, Director                  Systems Security


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-03-13034.




IG Statement on SSA’s Major Management Challenges
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
